                                   December 29, 2000

                                   GEORGE L. LOPEZ
                                   VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

                                   CARL JANUARY
                                   DISTRICT MANAGER, DALLAS

                                   SUBJECT:	 Abandoned Postal Service Records Found at
                                             the Dallas Downtown Station
                                             (Report Number LB-LA-01-001)

                                   This letter advisory report presents our observations
                                   regarding abandoned records found at the Dallas Downtown
                                   Station (Project Number 00EA003LM003). We identified
                                   these conditions during a previous audit.1

    Results in Brief	              We found records subject to the Privacy Act abandoned on
                                   unused floors and in the basement of the Dallas Downtown
                                   Station. We notified Dallas District officials apprising them
                                   of the location and condition of the records. We also
                                   expressed concern that the records were not properly
                                   safeguarded and/or disposed of in accordance with postal
                                   policy. In response to our concerns, district officials directed
                                   record custodians to remove and properly store active
                                   records and to dispose of inactive records. During our final
                                   on-site review of the station, we confirmed that all records
                                   were removed from the facility.

                                   Management indicated agreement with the information
                                   contained in this report and stated that processes have
                                   been put in place to ensure the proper storage, safeguard,
                                   and destruction of similar records in the future.
                                   Management's comments, in their entirety, are included in
                                   the appendix of this report.

1
    Allegations of Unsafe Working Conditions at the Dallas Downtown Station, (LM-AR-00-001 and LM-VR-00-001).
Abandoned Postal Service Records                                                                    LB-LA-01-001
 Found at the Dallas Downtown Station




    Objective, Scope, and         The objective of our review was to ensure that records
    Methodology                   found abandoned on unused floors and in the basement of
                                  the Dallas Downtown Station were properly safeguarded
                                  and disposed of by Postal Service management in
                                  accordance with postal policy.

                                  To accomplish this objective we conducted eight follow-up
                                  visits to the station to monitor progress and final disposition
                                  of the records.2 We took photographs to document the
                                  condition of the records. On February 22, 2000, we
                                  conducted a final on-site review of the station to confirm
                                  whether all of the records were removed for proper storage
                                  or destruction.

                                  This review was conducted from July 1999 to
                                  December 2000, in accordance with the President’s Council
                                  on Integrity and Efficiency, Quality Standards for
                                  Inspections. We discussed our conclusions and
                                  observations with appropriate management officials and
                                  included their comments, where appropriate.

    Observations                  We found records subject to the Privacy Act abandoned on
                                  unused floors and in the basement of the Dallas Downtown
                                  Station. The records found included Equal Employment
                                  Opportunity complaint files, payroll, recruiting, examining,
                                  appointment, and injury compensation records. Records
                                  were mixed with trash in mail carts, in cardboard boxes, in
                                  waste receptacles, and on the floor. In addition, some
                                  records were found in plastic tubs in a locked room in the
                                  basement. Also, records were stored in unlocked filing
                                  cabinets in a room in the basement.

                                  We notified Dallas District officials apprising them of the
                                  location and condition of the records. We also expressed
                                  our concern that the records shoul d be properly
                                  safeguarded or disposed of in accordance with postal
                                  policy.




2
 The dates of the visits were January 26, 2000; February 2, 2000; February 3, 2000; February 8, 2000; February 11,
2000 (2 visits); February 17, 2000; and February 22, 2000.




                                                        2
Abandoned Postal Service Records                                                              LB-LA-01-001
 Found at the Dallas Downtown Station




    Photograph 1
    Abandoned second floor office area, July 19, 1999 – Equal Employment Opportunity records
    mixed with trash in mail carts, in cardboard boxes, in waste receptacles, and on office floors.




 Photograph 2                                         Photograph 3
 Second floor, July 19, 1999                          Fifth floor, February 11, 2000

 An Equal Employment Opportunity complaint            Payroll, candidate recruitment, and testing records
 from 1988, which was one of many files found by      found mixed with trash in mail baskets, in
 the OIG. We altered the identifying information      cardboard boxes, and on the floor.
 to protect the complainant.




                                                     3
Abandoned Postal Service Records                                                               LB-LA-01-001
 Found at the Dallas Downtown Station


 Confirmation of                  In response to our concerns about the records found at the
 Management's                     Dallas Downtown Station, district officials directed
 Actions                          managers and custodians to have the records removed for
                                  proper storage or destruction. On February 22, 2000,
                                  during our final on-site review of the station, we confirmed
                                  that all records were properly removed from the facility for
                                  storage or destruction. Accordingly, this report contains no
                                  recommendations requiring a response.




 Photograph 4                                             Photograph 5
 February 11, 2000, Fifth floor                           January 26, 2000, Basement storage room

 District personnel removing payroll and candidate        District personnel removing injury compensation
 recruitment and testing records for proper storage       records for proper storage or destruction.
 or destruction. Approximately 7,000 pounds of            Approximately 10,000 pounds of injury
 payroll and recruitment records were removed             compensation records were removed from the
 from the station and destroyed.                          station and destroyed.


 Management's                     The vice president, Southeast Area Operations, indicated
 Comments                         agreement with the information presented in the report and
                                  stated that all Human Resources files previously stored at
                                  the Downtown Station were destroyed, removed, and/or
                                  properly stored in accordance with record-keeping
                                  regulations. In addition, controls are in place to ensure the
                                  proper storage, safeguard and destruction of similar records
                                  in the future. These processes include maintaining all
                                  Human Resources functional records within the physical
                                  location of the functional office, i.e., Injury Compensation
                                  office and Personnel office, to properly purge, archive and
                                  destroy all files in accordance with Postal Service policy. All
                                  private records are secured with a double-lock system to
                                  eliminate tampering possibilities.




                                                      4
Abandoned Postal Service Records                                                  LB-LA-01-001
 Found at the Dallas Downtown Station


 Evaluation of                 Management's comments were responsive to the
 Management's                  information presented in this report and the actions
 Comments                      discussed address the issues.

                               We appreciated the cooperation and courtesies provided by
                               your staff during the review. If you have any questions,
                               please contact Joyce Hansen, director Labor-Management
                               at (703) 248-2170 or me (703) 248-2300.



                               Ronald K. Stith
                               Assistant Inspector General
                                for Oversight and Business Evaluations

                               cc:	 Mary Ann Gibbons
                                    Clarence E. Lewis, Jr.
                                    Patrick R. Donahoe
                                    Yvonne D. Maguire
                                    John R. Gunnels




                                                5
Abandoned Postal Service Records                          LB-LA-01-001
 Found at the Dallas Downtown Station


                        APPENDIX. MANAGEMENT'S COMMENTS




                                        6
Abandoned Postal Service Records            LB-LA-01-001
 Found at the Dallas Downtown Station




                                        7
